<html>
<title> - EXAMINATION INTO THE ABUSE AND EXTRALEGAL DETENTION OF LEGAL ADVOCATE CHEN GUANGCHENG AND HIS FAMILY</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]



 
 EXAMINATION INTO THE ABUSE AND EXTRALEGAL DETENTION OF LEGAL ADVOCATE 

                     CHEN GUANGCHENG AND HIS FAMILY

=======================================================================



                                HEARING

                               before the

              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                            NOVEMBER 1, 2011

                               __________

 Printed for the use of the Congressional-Executive Commission on China


         Available via the World Wide Web: http://www.cecc.gov




                  U.S. GOVERNMENT PRINTING OFFICE
72-870                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




              CONGRESSIONAL-EXECUTIVE COMMISSION ON CHINA

                    LEGISLATIVE BRANCH COMMISSIONERS

House

                                     Senate

CHRISTOPHER H. SMITH, New Jersey,    SHERROD BROWN, Ohio, Cochairman
Chairman                             MAX BAUCUS, Montana
FRANK WOLF, Virginia                 CARL LEVIN, Michigan
DONALD A. MANZULLO, Illinois         DIANNE FEINSTEIN, California
EDWARD R. ROYCE, California          JEFF MERKLEY, Oregon
TIM WALZ, Minnesota                  SUSAN COLLINS, Maine
MARCY KAPTUR, Ohio                   JAMES RISCH, Idaho
MICHAEL HONDA, California

                     EXECUTIVE BRANCH COMMISSIONERS

                  SETH D. HARRIS, Department of Labor
                    MARIA OTERO, Department of State
              FRANCISCO J. SANCHEZ, Department of Commerce
                 KURT M. CAMPBELL, Department of State
     NISHA DESAI BISWAL, U.S. Agency for International Development

                     Paul B. Protic, Staff Director

                 Lawrence T. Liu, Deputy Staff Director

                                  (ii)


                             CO N T E N T S

                              ----------                               
                                                                   Page
Opening statement of Hon. Chris Smith, a U.S. Representative from 
  New Jersey; Chairman, Congressional-Executive Commission on 
  China..........................................................     1
Walz, Hon. Tim, a U.S. Representative from Minnesota; Ranking 
  Member, Congressional-Executive Commission on China............     2
Chai Ling, Founder All Girls Allowed.............................     5
Cohen, Jerome A., Professor, New York University School of Law; 
  Co-director, U.S.-Asia Law Institute; and Adjunct Senior Fellow 
  for Asia Studies, Council on Foreign Relations.................     7
Hom, Sharon, Executive Director of Human Rights in China; 
  Professor of Law Emerita, City University of New York School of 
  Law............................................................    13

                                Appendix
                          Prepared Statements

Chai, Ling.......................................................    38
Cohen, Jerome A..................................................    40
Hom, Sharon......................................................    43

Smith, Hon. Chris................................................    49
Walz, Hon. Tim...................................................    50

7
 EXAMINATION INTO THE ABUSE AND EXTRALEGAL DETENTION OF LEGAL ADVOCATE 
                     CHEN GUANGCHENG AND HIS FAMILY

                              ----------                              


                       TUESDAY, NOVEMBER 1, 2011

                            Congressional-Executive
                                       Commission on China,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 2:33 p.m., 
in room 2118, Rayburn House Office Building, Representative 
Chris Smith, presiding.
    Also present: Representative Tim Walz.
    Also present: Abigail Story; Judy Wright; Kiel Downey; Anna 
Brettell; and Paul Protic.

 OPENING STATEMENT OF HON. CHRIS SMITH, A U.S. REPRESENTATIVE 
 FROM NEW JERSEY; CHAIRMAN, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Chairman Smith. The hearing will come to order, and good 
afternoon to everyone.
    As we sit here in this room today, free to meet, free to 
move, free to speak our minds, we are convening this emergency 
hearing to examine the plight of an extraordinarily brave man 
and his equally extraordinary and courageous wife, who in every 
sense of the word are not free and are at grave risk of 
additional harm, and even murder.
    As we speak, we can only assume that self-taught lawyer 
Chen Guangcheng, a heroic advocate on behalf of victims of 
population control abuses, languishes with his wife, Yuan 
Weijing and six-year-old daughter, locked inside their home in 
a rural Shangdong province. However, we do not have the luxury 
of certainty regarding Chen or his family's current whereabouts 
or medical condition, as Chinese officials have used barbaric 
methods to prevent all unauthorized persons from contacting or 
visiting their village.
    According to Andrew Jacobs of the New York Times, ``Paid 
thugs repel visitors'', and ``journalists and European 
diplomatics who have tried to see him have fared little 
better.'' In a post on October 18th, Mr. Jacobs reports that 
the trickle of would-be visitors has become a campaign, 
Operation Free Chen Guangcheng. According to Peter Ford in 
today's edition of the Christian Science Monitor, the violence 
against human rights activists who travel to visit Chen 
continues to escalate: ``'About seven or eight men rushed up to 
me, kicked me to the ground, stole my cell phone, smashed my 
ankle, and knocked me out', Liu recalled Tuesday, 'and the 
police did nothing when I reported what had happened.'
    Liu was one of a group of around 40 activists who were 
attacked and beaten by more than 100 thugs on Sunday afternoon 
outside the village of Dong Xigu in the Eastern province of 
Shangdoing where Chen has been illegally locked up in his house 
with his family since being released from jail in September of 
last year.
    "'I did not think the situation was so dark,' Liu said. 
'There is no law in this area.' The violence marked the second 
weekend in a row that unidentified thugs had violently broken 
up efforts by human rights activists and ordinary citizens to 
visit Chen in a burgeoning campaign to win his freedom.''
    Chen Guangcheng's only crime that we know was of advocating 
on behalf of his fellow Chinese citizens, including and 
especially women and girls who had been victimized by forced 
abortion and involuntary sterilization. When Chen investigated 
and intervened with a class action suit on behalf of women in 
Linyi City who suffered horrific abuse under China's One Child 
per couple policy, he was arrested, detained, and tortured.
    Blinded by a childhood disease, Chen Guangcheng began his 
legal advocacy career in 1996, educating disabled citizens and 
farmers about their rights. Decades later when local villagers 
started coming to him with their stories of forced abortions 
and forced sterilizations, Chen and his wife Yuan Weijing 
documented these stories, later building briefs and lawsuits 
against the officials involved.
    Their efforts gained international news media attention in 
2005 and it appears that was the straw that broke the camel's 
back. Officials then began a barbaric campaign against Chen and 
his family in 2005, and over the years have subjected them to 
beatings, extralegal detention, numerous violations of their 
rights under criminal procedure law, confiscation of their 
personal belongings, 24-hour surveillance, and invasion of 
their privacy, discontinuation of all forms of communication, 
and even denial of education for their six-year-old daughter.
    Chen Guangcheng served over four years in prison on trumped 
up charges and was officially released in September of 2010. 
However, the abuse he and his wife and his family have faced 
has only worsened. Concern about Chen's health and well-being 
is growing worldwide, and numerous activists and journalists 
have made attempts in the past few months to visit Chen's 
village, only to face large groups of hired thugs who savagely 
beat them and steal their belongings.
    Enough is enough. The cruelty and extreme violence against 
Chen and his family brings dishonor to the Government of China, 
and must end. Chen and his family must be free.
    I would like to yield to my good friend and colleague, Mr. 
Walz, for any comments he may have.

    STATEMENT OF HON. TIM WALZ, A U.S. REPRESENTATIVE FROM 
 MINNESOTA; RANKING MEMBER, CONGRESSIONAL-EXECUTIVE COMMISSION 
                            ON CHINA

    Representative Walz. Thank you, Mr. Smith. Thank you for 
your passion as an unswerving champion of human rights, both 
here, China, and around the world. Also, a thank you to Senator 
Brown for convening this extremely important hearing. I want to 
thank each of our witnesses who are here today and truly 
appreciate your attendance. I very much look forward to hearing 
your remarks on this important issue.
    Today we hold this hearing to recognize and to honor one of 
China's most high-profile human rights activists. As you heard 
Mr. Smith say, Chen Guangcheng, as a person, as an activist, 
stands out as someone who exemplifies profound human courage 
and an unswerving commitment to justice. Chen not only overcame 
the hardships of being blinded at a young age, but succeeded in 
becoming an inspiring legal advocate, one who has touched lives 
not just in China, but around the world.
    In his legal work, Chen exposed China's brutal application 
of its population policies. He upheld the rights of the 
disabled and fought on behalf of the victims of discrimination. 
For his accomplishments, he wasn't rewarded. Rather, the 
authorities sent him to prison for more than four years. Upon 
conclusion of his sentence, he was not set free. Rather, he was 
placed under an illegal form of house arrest that has precluded 
Chen and his family from the freedoms and livelihood all just 
systems must protect.
    Chen and his family remain under illegal house arrest, and 
even today the conditions of their detention are shrouded in 
mystery. Police and violent thugs are stationed night and day 
around the home to prevent anyone from accessing them. We know 
that since Chen's release from prison in September of last year 
he and his wife have reportedly suffered physical and mental 
abuse at the hands of officials. Chen suffers from a digestive 
disorder and reportedly has been denied medical treatment. His 
daughter, now six, has only recently been allowed to attend 
school, under the watchful eye of law enforcement officers.
    Chen explained his circumstances in a videotape released in 
February of this year, saying, ``I've come out of a small jail 
and entered a bigger one.'' I followed China closely since, as 
a young man over two decades ago, I taught high school in 
Foshan, Guangdong province. I know China has announced notable 
reforms and advancement in recent years. I applaud the 
accomplishments of the Chinese people and recognize that some 
in the Chinese Government advocate for greater rule of law. But 
we cannot believe China is serious about the rule of law while 
Chen Guangcheng and his family are being forcefully held and 
abused.
    We cannot believe China is serious about human rights while 
it flagrantly violates its own laws and international human 
rights commitments. We urge China today to end this ongoing 
illegal detention and to free Chen and his family. We urge 
China to stand on the side of those brave activists that have 
traveled to Shandong province to inquire about Chen in the face 
of violent reprisals and shameless threats.
    We urge China to embrace Chen and other civil rights 
activists and make room for these selfless heroes, the leaders 
that all countries need for a stable society that respects 
human rights and the rule of law. Finally, let us remind our 
friends in China that all great nations achieve more through 
open dialogue and free flow of information than through forced 
silence.
    I thank each of you for being here today to honor this man, 
his family, and the many other advocates facing uncertain 
punishments and unwarranted confinement. I thank those of you 
who are sitting in this room that know that we each share a 
responsibility to raise Chen's story and to voice our concerns 
on behalf of Chinese advocates who remain detained in silence.
    I yield back to you, Mr. Smith.
    Chairman Smith. Thank you very much, Mr. Walz. Thank you 
for your advocacy on behalf of human rights, especially in 
China. I deeply appreciate you being here.
    I'd like to now introduce our very distinguished witnesses. 
But before I do, I ask that, without objection, the statement 
by our Cochairman, Senator Sherrod Brown, will be made a part 
of the record. He couldn't be with us here today, but he has 
written a very strong opening statement and is with us in 
spirit.
    I'd like to introduce our very distinguished witnesses to 
this hearing, beginning first with Chai Ling, founder of All 
Girls Allowed. Chai Ling also serves as the founding president 
and chief executive officer of Jenzabar, Inc., a higher 
education software and services provider.
    She holds an MBA from Harvard Business School, an MLA in 
Public Affairs from Princeton University, a B.A. from Peking 
University. Chai Ling also established the Jenzabar Foundation 
and serves as one of its board members.
    As we all know, Chai Ling was one of the most heroic 
student leaders during the 1989 Tiananmen Square movement. She 
was one of the most wanted by the Chinese dictatorship and 
spoke out so eloquently during those days when so many of us 
had great hopes that somehow China would matriculate from 
dictatorship to a democracy. Chai Ling has previously been 
named Glamour Woman of the Year, and nominated twice for the 
Nobel Peace Price. Chai Ling's memoir, ``A Heart for Freedom'', 
was published in 2011 and is a very, very riveting statement 
about her life and the times she lived in, and the main 
contributions she has made to the movement for human rights in 
China.
    We will then hear from Jerome Cohen, professor at New York 
University School of Law, a co-director of U.S. Asia Law 
Institute and Adjunct Senior Fellow for Asia Studies for the 
Council on Foreign Relations. A professor at NYU School of Law 
since 1990 and co-director of the Institute, he has served for 
years as C.V. Starr Senior Fellow and Director of Asia Studies 
at the Council of Foreign Relations, where he currently is an 
adjunct senior fellow.
    He introduced the teaching of Asian law into the curriculum 
at Harvard Law School, where he taught from 1964 to 1979. 
Professor Cohen retired as a partner at Paul, Wiss, Rifkind, 
Wharton & Garrison at the end of 2000. In his law practice, 
Professor Cohen represented many companies and individuals in 
contract negotiations, as well as dispute resolution in various 
Asian countries. He continues to serve as an arbiter in many 
Asian legal disputes.
    Professor Cohen has published several books on Chinese law, 
including The Criminal Process in the People's Republic of 
China, 1959-1963, People's China and International Law, and 
Contract Laws of the People's Republic of China. He received 
his B.A. Phi Beta Kappa from Yale College and graduated from 
Yale Law School, where he was editor-in-chief of the Yale Law 
Journal.
    Then we'll hear from Sharon Hom. Sharon Hom is the 
executive director of the Human Rights in China, professor of 
law, City University of New York School of Law, and is a human 
rights and media advocacy and strategic policy engagement with 
NGOs--she leads that--governments, and multi-stakeholder 
initiatives.
    She has testified on a variety of human rights issues 
before key domestic and international policymakers in the U.S. 
and in the European Union, and government bodies. She has 
appeared as a guest and commentator on broadcast programs 
worldwide, and is frequently interviewed by and quoted in major 
print media. She was named by Wall Street Journal as one of 
2007's ``50 Women to Watch'' for their impact on business. Let 
me also point out that she has taught law for 18 years, 
including training judges, lawyers, and law teachers at eight 
law schools in China over a 14-year period in the 1980s and 
1990s.
    She has published extensively on Chinese legal reforms, 
trade, technology, and international human rights, including 
chapters in Gender Equality, Citizenship, and Human Rights: 
Controversies and Challenges in China and the Nordic Countries 
in 2010, and China's Great Leap: The Beijing Games and Olympian 
Human Rights Challenges in 2008.
    She is co-author of Contracting Law, editor of Chinese 
Women Traversing Diaspora: Memoirs, Essays, and Poetry, and co-
editor of Challenging China: Struggle and Hope in an Era of 
Change.
    A very, very distinguished panel to provide insights into 
Chen and his family, and I'd like to now yield to Chai Ling for 
her comments.
    [The prepared statement of Senator Brown appears in the 
appendix.]

       STATEMENT OF CHAI LING, FOUNDER, ALL GIRLS ALLOWED

    Ms. Chai Ling. Thank you, Chairman Smith. I'm really 
honored to be here among all these distinguished witnesses to 
testify on behalf of Chen Guangcheng. Thank you, Congressman 
Walz, for your wonderful speech and support for Chen's case, 
and thank you to all the CECC members for your wonderful 
reports advocating on behalf of all the voiceless people in 
China.
    Chairman Smith, thank you again, especially for your 30 
years of persistent effort to end China's cruel One-Child 
Policy and massive genocide, in addition to many other human 
rights abuses. The case of Chen Guangcheng is inexpressively as 
grievous as you all stated, but today I will try to share the 
most recent details in the most accurate way possible. I pray 
one day he could be standing here, telling his own story to all 
of us.
    As you mentioned earlier, Chen Guangcheng is a blind 
attorney who investigated incidents of forced abortions and 
forced sterilizations by Linyi municipal authorities. Because 
of his courageous finding and documentation of late-term 
abortions and forced sterilizations--130,000 cases took place 
in 2005 alone--to the media, for this very reason he was 
arrested and imprisoned for four years and three months, but 
was finally released in September 2010.
    Since his release from prison, Chen has been kept under 
illegal house arrest and denied medical treatment for serious 
intestinal problems and deprived of all contact with the 
outside world. Reporters and activists who have tried to visit 
him have been rounded up and turned away as recently as two 
days ago.
    Recently, many more activists, including our workers who 
are partners through Women's Rights in China of All Girls 
Allowed, tried to visit him because we heard he had possibly 
been killed. Until last week, we did not know whether he was 
still even alive. When we tried to visit him in the past couple 
of weeks, our volunteers in China were blocked and driven away. 
The five activists were all disabled, and they wanted to visit 
him on the International Day for the Blind, but they were 
pushed around and their gifts were taken away by force. Their 
van was followed by local mobs and was chased away over 100 
kilometers before they were let go.
    No one had heard about Chen's condition for months. Last 
week, we finally received word concerning his situation from 
one of our other partners at ChinaAid, a Midland, Texas-based 
NGO that focuses on defending the persecuted church in China. 
According to ChinaAid, in July, a brutal four-hour beating by 
local authorities almost killed Chen and his wife. It was 
witnessed by their elementary school-aged daughter. The couple 
endured a similar brutal beating in February after they had 
smuggled out a videotape documenting the shocking conditions of 
their illegal house arrest following Chen's release from 
prison.
    The July beating occurred after a storm knocked out 
equipment that authorities had installed in Chen's house to cut 
off all their telecommunication contact with the outside world. 
When the equipment was disabled, Chen was able to make phone 
calls on July 25th. The calls were intercepted by authorities.
    On July 28, Shuanghou town mayor Zhang Jian led a group of 
people to Chen's home and beat and tortured the couple for four 
hours. This is the sequence of events provided by the source 
from ChinaAid: at 2 p.m., authorities cleared out everyone from 
Chen's village. At 3 p.m., authorities conducted an exhaustive 
search of Chen's home and found a phone card in a pile of 
ashes.
    At 4 p.m., authorities started the beating. Chen's screams 
of pain were heard first while his wife, Yuan Wenjing, was 
heard shouting angrily, along with their daughter, because of 
his cries. After a while, Wenjing's screams of pain could be 
heard as well from then until 8 p.m. The only sounds were 
screams of pain.
    Sometime later, a village doctor was permitted to give Chen 
some cursory medical treatment. During the four-hour beating, 
Chen's elderly mother, who lives with them, was prevented from 
entering their home. When she was finally allowed to go in, 
neighbors heard her burst into tears and her anguished cries, 
described as ``gut-wrenching'' to hear, continued for a long 
time.
    According to the source, Jiang tortured Chen to try to get 
him to tell how he got the phone card to make the call on July 
25 and to reveal where he had hidden it. When Chen and his wife 
refused to give any details, their house was ransacked until 
the phone card was found in a pile of ashes. Then the mayor's 
men viciously beat up Chen and his wife in the presence of 
their daughter.
    The source of the information asked, as a family men 
themselves with parents and children, how could they inflict 
such inhumane pain in the eyes or heart of the little girl? 
Yes, activists in China have been beaten and sent away as well, 
but many have taken the battle to the Internet and that is why 
the current case is so extraordinary and important.
    Chinese citizens are also speaking out online today, and 
are particularly outraged by the communal punishment of the 
whole Chen family. They pressured the government, particularly 
on China's Twitter, called Sina Weibo. Users are posting photos 
of themselves in dark glasses to honor Chen, similar to the 
photos we took just before the hearing.
    Authorities have blocked searches for Mr. Chen's name on 
Weibo, and even deleted some posts by users, though most posts 
about him and his case can be easily found through other means 
of searching. The head of China's Internet watchdog last week 
called for a strengthening of regulations over microblogs so 
they can serve the works of the Party and the people.
    According to the state-run Xinhua News Agency, authorities' 
apparent decision to allow Mr. Chen's daughter to attend school 
following weeks of growing online activism is breathing new 
life into the Internet campaign to free him, despite this 
online censorship. According to the Wall Street Journal, Mr. 
Chen's case is a rare example where rights activists and 
ordinary citizens alike are applying online pressure on the 
government.
    Yet, we know that a similar return to school of the 
daughter of the missing lawyer Gao Zhisheng only added to the 
pressures that battered her and did not presage release for her 
courageous father. Chen's daughter is accompanied by security 
agents to and from her classes.
    In America, we teach our daughters, our children, to honor 
police and to ask police officers for directions when they are 
lost. These officers and officials help to keep us safe, to 
keep the peace. But in China, when a man and his wife are 
beaten senselessly in front of their own daughter by 
authorities who should be protecting their rights, how do we 
respond and what does our response say about our nation's 
values? Recently in China a two-year-old child was run over by 
a van in Forshan, a city in China.
    The whole world watched the video footage of 18 people who 
walked by the toddler as she lay in a pool of her own blood, 
waiting for help, and wanted to know how these people could 
walk by unaffected, not acting on her behalf, even though they 
knew what had happened and that that baby needed help. Are we 
any different? I am not speaking to the leaders here, but 
speaking to those who are not present today during this 
hearing. If we do not do what we must do as a Nation, are we 
different from those 18 bystanders who left Yu-Yu to die? Are 
we going to be the same people who take no action and watch 
Chen and his wife and family die?
    All Girls Allowed exists to restore life, value, and 
dignity to women and girls in China and to reveal the injustice 
of China's One Child policy. Our work is inspired by the love 
of Jesus to sacrifice and to redeem humanity.
    Today, on behalf of All Girls Allowed and of our partner 
organizations, that is, Women's Rights in China, ChinaAid, and 
Women's Rights Without Frontiers, we have four major requests 
of our nation's leaders. The first, we urge President Obama to 
urgently demand Chen Guangcheng and his family to be released 
from house arrest and to be allowed to leave China to another 
country. We appreciate that Secretary Clinton has mentioned him 
by name in the past. The gravity of the current matter calls 
for urgent, immediate action from our Commander-in-Chief.
    Second, in addition, we continue to encourage the U.S. 
Embassy to visit Chen Guangcheng and his family. A newly 
arrived U.S. Embassy official in Beijing created a weblog 
account recently. Within days of his first message last week, a 
simple greeting and introduction of himself, the post was 
overrun with nearly 2,000 comments, many of which expressed 
support for Mr. Chen and criticism of the Chinese Government's 
handling of this case. So there is general support from the 
people, acting justly on behalf of Chen's case.
    Third, we urge the U.S. State Department to work with EU 
partners to also demand Mr. Chen's immediate release. Fourth, 
we urge President Obama to deny visa requests to visit America 
for all those who were, and are, involved in persecuting, 
torturing, and harassing Chen and his family, including Mayor 
Jian Jin, effective immediately.
    As a nation, when we see evil and we know it is happening 
clearly before our eyes, will we have the courage to speak out? 
I say today that what we have been doing is not enough and is 
not acceptable. We are not asking for our nation to invade 
China, or even to rescue this poor man from death. But we are 
asking America to stand and proclaim its very own belief loudly 
as a testimony of truth and light in this darkness. Continuing 
to allow this sort of brutality to go on by saying nothing is 
the same as saying something loud and clear. Silence has been 
deafening.
    As I conclude my testimony, I would like to leave all of 
you with the command that was given to us and teaches us what 
to do in this kind of situation. In the Word it says,

    For I was hungry and you gave me something to eat; I was 
thirsty and you gave me something to drink; I was a stranger 
and you invited me in; I needed clothes, and you clothed me; I 
was sick, and you looked after me; I was in prison, and you 
came to visit me. Then the righteous will answer him, Lord, 
when did we see you hungry and feed or, and were thirsty and 
give you something to drink? When did we see you a stranger and 
invite you in, or needing clothes and clothed you? When did we 
see you sick or in prison and go to visit you?' The king will 
reply, 'Truly I tell you, whatever you did for one of the least 
of these brothers and sisters of mine, you did for me.--Matthew 
25:35-40.

I pray in the name of our Lord and Savior Jesus, we will all 
take action today for our brother and hero, Chen Guangcheng, to 
bring him to safety and freedom.
    Thank you.
    Chairman Smith. Chai Ling, thank you so much for that very 
eloquent statement and for your four points which you made so 
eloquently as well.
    Ms. Chai. Thank you, Chairman Smith.
    Chairman Smith. I do appreciate it; we all do.
    [The prepared statement of Ms. Chai appears in the 
appendix.]
    Chairman Smith. I'd like to now recognize Professor Cohen 
and ask him to proceed.

 STATEMENT OF JEROME A. COHEN, PROFESSOR, NEW YORK UNIVERSITY 
   SCHOOL OF LAW; CO-DIRECTOR, U.S.-ASIA LAW INSTITUTE; AND 
  ADJUNCT SENIOR FELLOW FOR ASIA STUDIES, COUNCIL ON FOREIGN 
                           RELATIONS

    Mr. Cohen. Thank you, Mr. Chairman. I'm grateful to you and 
Mr. Walz and the Commission staff for giving us this 
opportunity to discuss the case of my dear friends, Chen 
Guangcheng and Yuan Weijing. I've known them for eight years. 
Unfortunately, the last six years they have been incommunicado. 
I want to say at the outset that in China, sometimes in this 
country, progress toward the rule of law comes from tragedy. 
Tragic events often wake up the people. It has happened in 
China; I hope we won't have to wait for tragedy in the case of 
Mr. Chen and Yuan Weijing.
    Now, at the outset I want to address quickly three myths 
that one often hears in connection with this case. One myth is 
that cases like Chen's are very rare, these are just minor 
blips on the radar screen. But that's not accurate. Human 
rights lawyers, public interest lawyers, criminal defense 
lawyers, people who take part in the defense of not only rights 
of speech and association, et cetera, but who are also trying 
to assert the rights of those involved in environmental 
problems, forced housing demolition, health problems that they 
want to take to court to vindicate their rights, all are 
subject to one kind or other of severe sanction or pressure.
    Most recently, Chen was involved, as Chai Ling has reminded 
us, in an attempt to stop the abuses against not only women who 
were being forced into sterilization and abortion, but also 
their families. Tens of thousands of people were illegally 
being locked up. When I last saw Chen, he was very pale, very 
nervous, smoking constantly. I had never seen him so anxious: 
he found it hard to sleep and was depressed about his inability 
to get the courts in China or the administration in Beijing to 
do anything about this tragedy.
    But there are lots of people like him, and the fact is, 
events are turning people--lawyers, defenders who never thought 
of themselves as human rights advocates--into human rights 
advocates because of the repression that they have confronted. 
I cite in my opening remarks a number of examples. These are 
all people I know, so I speak not only from the point of view 
of a detached observer. I know these people and therefore am 
involved with their fate.
    A second myth that has circulated is that the central 
government doesn't really know about this. Some say the central 
government would never tolerate or condone such terrible 
behavior by local officials. Well, that's just pat. I am glad 
to see you have circulated an article I wrote in November 2005 
in the Far Eastern Economic Review. It was an open letter to 
the then-Minister of Public Security, Zhou Yongkang, asking 
him, is this the way the government of a civilized country 
wants to behave? At that point, Chen had not yet been 
prosecuted, but the family, including him, had been locked up 
at home.
    Well, later there was reportedly a meeting of the central 
authorities with the provincial and local authorities, and 
instead of resulting in Chen's release, it resulted in his 
criminal prosecution, a much more conventional form of 
repression than the illegal home imprisonment to which they had 
all been subjected.
    It's impossible certainly today to say the central 
authorities don't know what's going on. This is just what they 
used to call ``one of Pretty Fannie's Ways.'' We can't take it 
very seriously. Unfortunately, it's having very serious 
consequences.
    A third myth is that there must be some legal justification 
for what is being done, even if it is an unpersuasive fig leaf. 
But the fact is, none has come to light. We have not heard any 
explanation of this really barbaric treatment of the Chens from 
any government official. There was an opportunity just the 
other day to offer an explanation. There was a press conference 
in Beijing celebrating the release of a white paper that marked 
all the legislative accomplishments of the Chinese Government.
    I have here the October 28 China Daily, the English 
language newspaper that's very prominent, and you see exactly 
what they're telling us: 240 laws enacted by the end of August; 
706 administrative regulations; 8,600 local regulations. 
They're telling us of all the laws and regulations that they 
have promulgated, and it's an impressive accomplishment.
    But the problem is, if the police pay no attention, if the 
local authorities pay no attention, if the hired thugs pay no 
attention to all these rules, what does it mean? Well, this 
relates to a question that you have asked: Why are they doing 
this to the Chens? I think it's clear. It started out as a 
local attack of vengeance against Chen, who was trying to 
expose the illegal behavior of the officialdom involving forced 
abortion and sterilization. He'd been a thorn in their side for 
a long time with regard to many other official abuses.
    Although that had won him considerable recognition abroad--
that is how I met him, he was a State Department guest in 2002, 
visiting New York and Washington--but at home it made him an 
irritant to local officials. The last straw, as was mentioned, 
was the birth control violations he was revealing.
    But there is a larger motive here. This is not merely local 
vengeance, this is part of a national strategy of the Communist 
Party and the central authorities for dealing with the current 
situation where they're confronted by increasing unrest and 
increasing domestic and foreign upset about lack of rule of law 
in China that comes up in many different contexts.
    Their new strategy is, on the one hand, to promulgate all 
these laws, as they have. On the other hand, they're not going 
to allow the laws to be enforced whenever it's inconvenient. 
The way to make certain that they will not be enforced is to 
suppress the only people capable of invoking these legal 
protections--rights lawyers. If you don't allow the activities 
of lawyers who know how to apply these increasingly complicated 
laws, you don't have to worry that you're going to be called to 
account. You don't have to worry that Party and government 
autonomy is going to be challenged.
    So on the one hand, the Party promulgates the laws. On the 
other hand, it makes sure in informal as well as formal ways--
and the Chen case is one of the most glaring examples--that 
those capable of using these laws to protect people will not be 
able to do so. So it's a kind of best-of-both-worlds policy for 
the Party. It reminds me very much of Shakespeare's Macbeth: 
``They keep the word of promise to our ears, but break it to 
our hope.'' That's what we see as the Party's legal strategy in 
China today.
    The other day at the press conference that released the 
White Paper, the deputy director of the Legal Affairs 
Commission of the Standing Committee of the National People's 
Congress, which is currently revising the criminal procedure 
law in a very controversial fashion, was asked by a foreign 
reporter about the legal basis for what is being done to Chen 
Guangcheng and his family. He couldn't answer. Instead, he 
contented himself with the generality, ``There's always a legal 
basis for any sanctions we take against individuals in China.''
    Apparently the government didn't have much confidence in 
this important official's assertion, because right after the 
conference this question and the answer were both eliminated 
from the transcript and from the video broadcast. So the 
Chinese people could not hear the statement that in China 
``there's always a legal basis for any sanctions taken against 
individuals.''
    Well, what can be done? I'm glad you also have asked that 
question. We're all concerned about it. I think many people 
feel frustrated, not only those of us who are observing this 
from abroad, but large numbers of people in China. I think the 
case of Ai Weiwei recently demonstrated that foreign pressure 
can be useful. Ai Weiwei, although still under limited 
restraint, is now at last out of ``residential surveillance'' 
in the public security force's residence, and that's as a 
result of the considerable foreign pressures that were 
generated by the outrageous mistreatment of him.
    I think this hearing today, and similar hearings like it in 
all the democratic countries, can help to increase awareness 
and useful pressure. Next year, 2012, there is going to be, as 
you know, a selection of the new generation of Chinese leaders 
for the next 10 years. It's possible--possible, not likely 
perhaps, but possible--that among them there will be some 
leaders who will see that the protection of human rights for 
their own people can become a popular platform for reform. I 
don't discount that possibility, even though one has to be 
cautious in assessing it.
    There are, of course, a lot of possibilities for 
international organizations, foreign governments, NGOs, 
educational institutions, ordinary people to make their views 
known in the course of their associations and exchanges with 
China. We should use those to express our concern for cases 
like this. The U.S. Government has official human rights 
dialogues with China, as other governments do, and the two 
countries also have renewed their official legal experts' 
dialogue. I think it's important that in these dialogues we 
discuss concrete cases, individual cases, not merely general 
principles, not merely improving the legislation. The question 
is practice, not theory.
    But the real solution, of course, lies in China. The 
Chinese people hold the key. Even today many criminal justice 
specialists in China still claim they don't know anything about 
Chen Guangcheng's case. I think that for some experts that's 
simply a defense against their inability to express themselves. 
I think that for others it's quite true.
    The Chinese Government tries to keep things extremely non-
transparent. That is the reason why they don't allow access to 
Chen Guangcheng, why they don't want people to be able to 
communicate with him. They know if this case becomes more 
available to the Chinese people there will be increasing 
pressures for change.
    The Internet and social media offer the opportunity. For 
example, disabled people, who may amount to 8 or 9 percent of 
the Chinese population, a huge group, could make an impact.
    Chen Guangcheng once told me that he thought that in his 
Linyi City, a population of almost 11 million, roughly 10 
percent of the population was disabled in some form. Now, you 
can see, if that kind of community gets activated by knowledge, 
this could make a difference. I use in my opening paper the 
analogy of environmental protests in China. Environmentalists 
have had a number of successes in China. By arranging for 
large-scale ``strolls,'' they call it, peaceful walks through 
their communities, whether in Xiamen, Shanghai, or Dalian, they 
have had an impact. You can imagine, if the disabled people of 
China were free to know the truth and express themselves, this 
could be a peaceful form of support for Chen leading to his 
release.
    So what we're witnessing in China is something that could 
become another landmark--I hope it will be a landmark without 
tragedy--in progress toward the rule of law. Chen Guangcheng is 
an especially unfortunate target for the abuse he is suffering 
because he was one who always saw the importance of using legal 
institutions, not defying them by going into the streets. He 
wanted to alleviate many social grievances, providing an outlet 
for them by going, according to law, to the county court in his 
Yinan county.
    Yet, he found himself increasingly frustrated by the 
refusal of the court, under the control of the local 
authorities who were the ones being sued, to take these cases. 
One day he said to me in frustration, ``What do they want me to 
do? Do they want me to go into the streets and lead a protest? 
'' He said, ``I don't want to do that.'' It's supremely ironic 
that they end up convicting him of supposedly interfering with 
traffic and damaging public property. This was just a pretense.
    My hope is that China will move toward the rule of law in 
practice, as well as theory. I think this will alleviate a lot 
of the rising social discontent in China. Last year, 2011, some 
reports claim they may have had almost 180,000 public protests 
and riots, many of them violent. This would be an incredible 
statistic.
    Every year, as far as we can tell--and it's hard to tell 
because of the cloak of non-transparency--this number seems to 
be rising. It seems to me that an enlightened leadership in 
China would want to increase real harmony by processing these 
grievances through legal institutions and not persecuting the 
people who are capable of implementing the protections of the 
law that should be carried out.
    We have seen similar problems in Taiwan in the Chiang Kai-
Shek days, and in South Korea in the Park Choon-Hee days. But 
later and wiser leaders, under increasing pressure, domestic 
and international, opted for the democratic use of legal 
institutions. We have seen greater social and political 
stability in both Taiwan and South Korea since then. So that's 
my hope for China, too. I look forward to Ms. Hom's statement 
and to the discussion that will follow.
    Thank you very much.
    Chairman Smith. Professor Cohen, thank you so much for 
your--I think for your law students, it must have been a real 
treat to hear you lecture, because that was a very, very wide-
ranging, but very incisive, commentary, and also a road that 
the Chinese Government should follow, an enlightened 
government, as you pointed out. So we thank you on behalf of 
the Commission for your testimony and for giving us your wise 
insights.
    [The prepared statement of Mr. Cohen appears in the 
appendix.]
    Chairman Smith. Ms. Hom?

STATEMENT OF SHARON HOM, EXECUTIVE DIRECTOR OF HUMAN RIGHTS IN 
 CHINA; PROFESSOR OF LAW EMERITA, CITY UNIVERSITY OF NEW YORK 
                         SCHOOL OF LAW

    Ms. Hom. Thank you, Mr. Chairman and Mr. Walz. Thank you 
for convening this very important and timely hearing and on an 
urgent situation.
    I would like to move my written statement into the record 
and not use the limited oral time to repeat the information 
that has already been presented by Chai Ling and Professor 
Cohen.
    Chairman Smith. Without objection your statement, and all 
the statements, will be made a part of the record.
    Ms. Hom. Thank you.
    It's very difficult to follow Professor Cohen, because no 
one can follow Professor Cohen, who is one of the oldest 
friends of the Chinese people--and a great inspirations for all 
of us who work to advance human rights in China.
    As already has been documented in the CECC report this year 
and the U.S. State Department's human rights report for China, 
human rights violations in China are ongoing, systematic, and 
quite serious. While the focus of this hearing is on Chen 
Guangcheng and related implications for rule of law, I want to 
note the urgent situation of Tibetan monks and nuns who are 
setting themselves on fire in desperate acts of protest against 
the crackdowns on their religious and cultural freedoms.
    I have been asked to focus on the persecution of Chen and 
his family and the treatment of those who have attempted to 
visit him, but I would like to add some highlights to what has 
already been said--Chen Guangcheng's story is a well-known 
story internationally, and inside China, especially among the 
rights defenders community
    A blind, self-taught, barefoot lawyer activist, Chen is a 
vocal advocate for the disabled, land rights activists, and 
victims of the coercive implementation of China's One-Child 
Population Policy. His story is the struggle of one principled, 
committed advocate for social justice who blew the whistle on 
forced sterilizations and forced abortions in Linyi, and then 
was subsequently violently targeted by the Chinese authorities.
    The ordeal and the abuses that he and his family and his 
lawyers suffered have been well-documented. Chen also served 
the full four years and three months of his sentence, despite 
the fact that back in November 2006, the UN Working Group on 
Arbitrary Detention, a UN independent body of experts, 
determined that Chen's detention was arbitrary, and contravened 
the principles and norms set forth in the Universal Declaration 
of Human Rights. The Working Group requested that the Chinese 
Government take the necessary steps to remedy the situation and 
bring its actions into conformity with the standards and 
principles. However, the Chinese authorities failed to release 
Chen or take any remedial actions in response to the decision 
of the Working Group.
    International expressions of support and concern for Chen 
Guangcheng and his family have been and continue to be strong. 
In fact, the United States and the European Union have called 
for Chen's release throughout his four years and throughout the 
ordeal of Chen and his family.
    Beginning in 2005, numerous independent international human 
rights experts also expressed concerns and sent urgent appeals 
and letters of allegations to the Chinese authorities, 
including the Special Rapporteurs on freedom of expression, on 
violence against women, on torture, on independence of judges 
and lawyers, and the Special Representative of the Secretary 
General on human rights defenders from 2005, 2006 on continued 
to send numerous requests for information and expressions of 
concern to the Chinese Government.
    Yet, despite all of these strong and ongoing concerns 
expressed by the international community and the high profile 
of Chen Guangcheng's case in the media, the local authorities 
continue to allow thugs and plainclothes police to trample on 
the rights of Chen and his family. This egregious disregard for 
the rights of Chinese citizens protected by Chinese and 
international human rights law is part of the continuing severe 
crackdown on lawyers, activists, and rights defenders.
    Chen's supporters, as Chai Ling has already referenced and 
widely reported, include activists, writers, bloggers, 
petitioners, and ordinary Chinese who have just been outraged 
by reading about or hearing about the persecution of Chen and 
his family, and who have attempted to visit him to show their 
solidarity.
    Last night, Human Rights in China [HRIC], issued a press 
bulletin titled, ``Dozens of People Beaten While Attempting to 
Visit Blind Legal Advocate Chen Guangcheng,'' detailing the 
most recent abuse of Chen's supporters. Eyewitnesses told us 
that over the weekend about 37 rights defenders and netizens 
who attempted to visit Chen were beaten by around 100 
unidentified individuals; many of these supporters were 
seriously injured.
    According to rights defender, petitioner, and activist who 
resisted the One-Child Population Policy, Mao Hengfeng was 
among those beaten and injured. She, and about 36 of these 
individuals who attempted to visit Chen, were surrounded about 
200 meters away from the village where Chen lives. Our written 
statement lists the names of those who were injured.
    However, Shanghai rights defender Jin Yuehua told HRIC that 
when she and Shan Yajun tried to videotape the beatings, they 
were almost hit by a police vehicle with a license plate number 
that they did note with their cell phones, and another vehicle 
without a license plate. After they called the emergency 
hotline, four ambulances arrived but left without helping 
anyone.
    Another netizen, San Long Yong Shi, told HRIC that after 
dialing the emergency hotline numerous times, several officers 
did show up. The officers took Li Yu, Liu Ping, and Shan Yajuan 
away, and since then their cell phones have been turned off. As 
of the time of this hearing, we do not have any updates on any 
contact with them.
    According to San Long Yong Shi, more than 20 of the victims 
went to the Linyi Municipal Public Security Bureau to report 
and file the case yesterday. They asked the police to guarantee 
their safety. San Long Yong Shi said that the vice director, 
Mr. Xia--officer number 078171--met with the group and asked 
them to report to the plainclothes police and special police 
officers, and told them to get into the police vehicle. When 
the group insisted on seeing his police identification before 
getting into the vehicle, they were told, ``If you keep making 
trouble we will wipe you out.''
    However, although thugs may be beating, threatening, and 
intimidating people, actually the authorities have been unable 
to shut down the virtual spaces and the online campaigns 
initiated in support of Chen. Feng Zhenghu's Free Chen 
Guangcheng campaign, has generated more than 400 signatures. 
Once the flood gates of truth are opened, it's very hard to try 
to shut it down. The ``Travel to Shandong to Visit Chen 
Guangcheng'' campaign has attracted now more than 100 visitors. 
Another group of netizens are running the virtual campaign of 
Hei Yanjing, the ``dark glasses'' campaign, that asks people to 
express solidarity with Chen, to put on dark glasses, take a 
photo, and upload it to this Web site. The links are noted in 
my written testimony. So far, as of yesterday, more than 245 
people have taken pictures of themselves in dark sunglasses and 
submitted it to the Web site.
    I want to close with some brief remarks on the role of the 
international community and specifically reference the recent 
example of Relativity Media which is filming its new 
production, ``21 and Over'', a feature comedy film, in Linyi. 
In HRIC's open letter sent yesterday to Relativity Media and 
its partners, SAIF and IDG, we expressed our deep concern about 
their apparent failure to do due diligence before selecting 
Linyi as a filming location for a comedy film. We pointed out 
that Linyi is indeed a historic city as proclaimed by Zhang 
Shaojun, Linyi's Party secretary. But Linyi has entered into 
the annals of history for something inglorious. It's a place 
where the local authorities are responsible for egregious, 
ongoing, and widely reported violations against one of the most 
prominent human rights advocates.
    We urged these companies to demonstrate their professed 
commitment to human rights by concrete action, such as 
terminating the filming of a comedy in a city of human rights 
shame. We also urge them to raise these issues with the Linyi 
Party secretary--who they have publicly said is a good friend--
and to raise their human rights concerns about the ongoing 
persecution of Chen Guangcheng and his family, as well as the 
violence and intimidation perpetrated against Chen's 
supporters. In light of Congress and the administration's 
broader concerns with the human rights impacts of U.S.-based 
companies operating in China, we urge you to closely monitor 
this situation and we thank the Commission for your ongoing 
commitment to your critical mandate.
    The severity of persecution and suffering endured by Chen 
and his family and the efforts of the authorities to intimidate 
his supporters are ongoing, even as we sit here today. The 
urgent challenge remains to ensure the safety and freedom of 
Chen, his family, and the respect for human rights for all the 
people in China.
    Yet, with China's economic, political, and soft power 
influence, strengthened by its position in the current global 
financial crisis, China continues to dismiss the human rights 
pressures from the international community. Yet, China cannot 
dismiss the growing pressure from its own people for 
accountability and for justice. The courage, persistence, and 
creativity of netizens and China's supporters are lights in 
China's darkness. Our collective mission is to stand in 
solidarity with them.
    Thank you for this opportunity to speak. I look forward to 
your questions, and most importantly to our discussion and 
exchange about what can be done from here. Thank you.
    [The prepared statement of Ms. Hom appears in the 
appendix.]
    Chairman Smith. Ms. Hom, thank you so very much for your 
testimony and for being back before the Congress to provide, 
again, your very eloquent insights as well, a lifetime of 
advocacy. The Commission is very much indebted to you today, as 
well as in the past.
    Let me ask a few questions. Do we have current knowledge of 
Chen and his wife as to their well-being, as well as their 
whereabouts? Are they totally isolated right now?
    Ms. Hom. I think that what has been very clear from all the 
media reports and from people that we have spoken to who have 
attempted to visit Chen, is that the information that we're 
getting report sounds from inside Chen's home. One of the 
villagers who watched the beatings of the group of 37 who tried 
to go over the weekend reported that they heard beatings inside 
Chen's home. Although no one has confirmed or is able to 
confirm reports of what's actually happening inside, I think 
these reports should really raise very serious concerns.
    Chairman Smith. Let me ask you, Chai Ling, you had 
mentioned the importance--you had four points in your testimony 
and the word ``urgent'', I think, undergirded each of those 
points.
    Ms. Chai. Yes.
    Chairman Smith. That the Obama administration and U.S. 
Embassy work with you and EU partners. My question is, in the 
assessment of the panel, if you could each look at this, have 
we, the U.S. Congress, the administration, our ambassador, 
previous as well as Ambassador Locke, today, done enough to 
raise the case of Chen? Has there been, to your knowledge, a 
visit or attempted visit by U.S. Embassy personnel to his home?
    Ms. Chai. If we apply enough pressure collectively, in 
unity, I believe that Chen Guangcheng can be released to 
freedom. So because he is suffering this continuous torture and 
beatings and his health condition continues to deteriorate in 
isolation, we do believe the time to act is now, and we must 
act.
    Mr. Cohen. There is a rumor that it was possible for an 
American diplomat, secretly, to get to Chen and his family. I 
don't know if that's accurate or not. Because of the non-
transparency, it's hard to say anything more than what has been 
said. Many foreign diplomats, journalists, and others have 
tried to get there, but they've been treated just as badly as 
domestic people who, fortunately--a small group, at least--keep 
trying.
    The problem with U.S. Government pressure is it may be, 
among the various possibilities we've mentioned, the least 
effective, I would say for two reasons. One, our own well-known 
violations of human rights in a number of prominent respects 
deny us the standing we used to have when we tried to preach to 
foreign governments.
    Also, we have, since China's entry into the WTO, as you 
know, lost our maximum leverage over China concerning its human 
rights violations. Before China was approved by the Congress 
for entry into the WTO, every year there would be congressional 
review of China's human rights record in order for China to 
continue its most-favored-nation status in the United States. 
China's WTO entry also required congressional approval. I have 
been involved in human rights cases, one as recently as the 
year 2000, where it was China's eagerness to get your approval 
for entry into the WTO that led to the victim's release. The 
case of the Dickinson College librarian, Mr. Song Yongyi, was 
the most recent example.
    I was involved with Senator Arlen Specter in that case, and 
the Chinese well knew--we made it clear--that Congress would be 
unlikely to approve their WTO entry as long as Mr. Song, a 
resident of Pennsylvania, which was Mr. Specter's state, 
remained in illegal captivity.
    So the problem since China's WTO entry has been, and that 
has led to your Commission's establishment, how can public 
opinion and other governmental and non-government influences be 
used to stimulate protection for Chinese people whose rights 
have been abused?
    In another case, the case of an American businessman named 
Xue Feng, who is still locked up in China, every month our 
then-ambassador, Jon Huntsman, or his deputy, Bob Goldberg, 
would go to visit Xue, as the U.S.-China bilateral consular 
agreement permitted. I've never seen more extraordinary, 
consistent pressure than that. I admired what our diplomats 
did. But Xue Feng is still there. It may be that overt U.S. 
intervention, although desirable, is the least effective of 
various pressures we should employ.
    What seems to be more effective is the popular outcry, and 
that's what we witnessed in the Ai Weiwei case. In that case, 
the international artistic community, which had previously had 
only goodwill toward China, came up with 143,000 signatures on 
a petition to free Ai Weiwei. That made an impression on the 
Chinese Government, which wants a ``soft power'' reputation. 
That's why they've been establishing Confucius institutes in 
the United States and in many other countries, especially 
universities.
    Well, you don't get soft power when you've mobilized the 
world's artistic community against you because you've behaved 
in an indecent way toward one of the world's most prominent 
artists.
    So I think it may be the power of foreign public opinion. 
It may be the power of organizations, including NGOs and 
others, that may be even more important than overt U.S. 
Government concern for concrete cases. The U.S. Government's 
public concern for concrete cases worked well in the 1990s. 
Since China's entry into the WTO in the last 11, 12 years, 
however, we have not seen that being very effective.
    Yet, we have no choice. We can't expect our government not 
to pay attention to these cases, and we need its help. But I 
think it is going to also take an improvement in our own 
official human rights conduct. I think one of the most profound 
things ever said was by Robert Burns, the Scottish poet who 
wrote, ``Oh, would the Lord, this giftie gie us, to see 
ourselves as others see us.'' So it can't be ``do as we say, 
not as we do.'' It's a complicated question, Mr. Chairman.
    Chairman Smith. Thank you.
    Ms. Hom. We have seen over the last 30 years that overt 
U.S. pressure, by and large, has not been as effective as one 
would hope. But I do think, notwithstanding that, it is 
extremely important at the highest level, that the U.S. 
Government, both Congress and the Administration, continue to 
send strong messages because those messages actually get 
broadcasted back in a kind of round-trip translation/media 
circulation loop. Despite official censorship efforts, these 
messages get translated into Chinese, disseminated through the 
Internet and blogosphere, and they do have a ripple effect 
supporting defenders.
    On a pragmatic level, I think that the United States and 
other Western democracies need to reinstitute a more effective 
and transparent sharing of information and strategies--the EU 
is in the middle of a process right now of once again--
rethinking its China policy engagement because, frankly, they 
must know that it's not working to advance concrete progress.
    So I think this is a good moment to reach out and try to 
strategize concretely about how the United States and the 
European Union can perhaps coordinate effectively, though the 
EU is in a worse situation than the United States, as the EU is 
knocking on China's doors for help with its sovereign debt 
problem. I believe that someone in the Administration was 
quoted quite recently as saying, ``It's hard to be tough with 
your banker.''
    I would say that we have to be tough with the banker 
because the recent Wall Street financial crises have shown, 
that not being tough with ``the banker'' will open everyone, 
the 99 percent of the rest of us, to the risks of corruption, 
greed, bad behavior, and consequences of a total lack of 
accountability. I think any exchange for short-term benefits 
ignores at our peril the longer term picture and the need for a 
sustainable relationship.
    I wanted to also piggyback on what Professor Cohen was 
saying about soft power. We don't have a lot of leverage 
outside of China, but we do have one point of leverage--soft 
power--that seems to be just not used and I don't understand 
why. It's incomprehensible. Because, to the Chinese regime, 
cultural soft power is extremely important. Why else would they 
invest the enormous amount of resources it has invested into 
its big propaganda campaign--translated into English more 
benignly as an advertising campaign, or public relations.
    One example: The investment in one of the largest multi-
media signs in Times Square for Xinhua, China's official news 
agency--just beneath the Prudential billboard and above the 
Samsung and Coca-Cola signs. The People's Daily has also moved 
into the Empire State Building, which they reported widely in 
the Chinese media. They've invested broadly in expanding the 
number of Confucius Institutes, along with exerting control 
over the curriculum, so when Chinese history is taught in the 
Confucius Institutes you will see black holes for certain 
periods like the 1989 Democracy Movement, et cetera. These are 
some of the ways in which China is deploying its soft power and 
enormous resources to culture, education, and media outlets, 
including more than 33 foreign media outlets, to promote a 
positive China story. So why is the international community 
allowing China this cost-free deployment of soft power without 
any push-back, without any conditions, without any critical 
scrutiny?
    If you saw a map of how many Confucius Institutes are in 
this country, you would be shocked. Perhaps not. Many of the 
Confucius Institutes are hosted at institutions of higher 
learning, think tanks, or cultural institutions. Perhaps they 
really ought to report on the funding sources and Chinese 
Government conditions on their programs, cultural exchanges, 
and curriculum. I think that would be a useful follow-up.
    Chairman Smith. So let me ask you, with regards to, you 
mentioned the overt may not work, or has not worked since the 
1990s. I would respectfully argue the overt efforts on human 
rights have never been tried. We have done it in a marginal 
way. I remember when President Bill Clinton linked most favored 
nation status to human rights observance and the benchmarks 
that were laid out in his executive order couldn't have been 
more ennobling, more comprehensive than they were.
    Within weeks of setting out that executive order--and by 
the way, parenthetically, we had the votes, at least we 
believed we did, both in the House and the Senate to take away 
most favored nation status from China because--you know, I was 
working very closely with the former Speaker of the House Nancy 
Pelosi, and others. There was a bipartisan consensus that China 
needed to be held to account on human rights.
    In came this executive order, which in a way put a 
tourniquet on that legislative effort, and then within weeks, 
and certainly within months, I went halfway through the review 
period and I was told in China by a deputy foreign minister 
that--and I had a signature sheet of 100 members, bipartisan 
members saying, we're with Bill Clinton. He will stand firm. 
If, by sometime in May, significant progress is not made in 
human rights, most favored nation status is a goner.
    They practically laughed at me in China, believing that 
there was no way that Clinton would hold firm. Sure enough, in 
May 1994, late on a Friday afternoon, he literally ripped up 
the executive order and said, we are de-linking human rights 
with MFN.
    So I would respectfully argue that we have not even tried. 
They judged us as believing that profits trumped human rights 
and have behaved accordingly. If there was a reversal on human 
rights in the most profound of ways, in my opinion, it happened 
in May of 1994 when Clinton de-linked human rights. It was 
exacerbated by statements made thereafter that were always 
lukewarm. So we, in my opinion, have never tried the overt. We 
have made statements and then we draw back.
    My hope is, and I believe this Commission has an 
opportunity, to assert a more robust effort on human rights, 
knowing that they may initially be repelled by it--they being 
the Chinese--knowing that Wei Jinxiang once told me in Beijing, 
and then right where you're sitting, Professor Cohen, when he 
testified after being released, having been pummeled almost to 
death by the dictatorship, that he said, when you are quiet or 
coddling--these are my words, but he spoke very closely aligned 
with that--when you kowtow to the dictatorship, they beat us 
more in the prison. But when you're tough and transparent and 
predictable, they beat us less.
    I would argue, judging by what Chai Ling had said, calling 
on the Obama Administration to raise these issues in the most 
profound way as non-negotiable, that these are things we care 
deeply about. Yes, we care about trade. Where will China--and 
Tom Lantos used to love to say this.
    Where will the Chinese Government find a market for its 
Christmas toys and all the things that they sell here, 
including high-tech gadgetry so we don't have to be so worried 
about the fact that they have $1.2 trillion worth of our debt 
because they have to use our markets and that's how they keep 
their economy thriving, if that's what you want to call it, by 
exports? So we have real leverage, we just haven't used it.
    I would respectfully also say, and you might want to 
comment on this, when Hu Jintao was here, I had asked Secretary 
Clinton, what was raised, human rights, behind closed doors, if 
anything? Was Chen Guangcheng's case raised in a way that is 
meaningful, not as an asterisk somewhere on page 4 on a set of 
talking points? We've got to be serious about human rights, and 
I know you three are. You've spent your whole lives on it.
    But I would hope our government, for once, would be serious 
and hopefully that bipartisan coalition that we've had in the 
past will re-emerge to say we're really serious about fighting 
for democracy. You don't have to worry about copyright 
infringement if they get the human rights piece right. You 
don't have to worry about exporting revolution or projecting 
power if they get the human rights piece right. So I do believe 
this is a peace issue as well.
    But I don't think we've even tried. As you said, Professor 
Cohen, I thought your point was well taken, that somehow it's a 
myth that the higher echelon, the central authorities don't 
know. It reminds me of something that was said during World War 
II. If only the Fuhrer knew what was going on in the gas 
chambers. Well, the central government does know.
    Hu Jintao does know, as does the rest of the ruling elite. 
And not only do they turn a blind eye, they are part and parcel 
of the effort to repress. So I don't think we, in all candor 
and seriousness, and with respect, have ever done the overt. We 
make a statement and we retreat. I'm hoping that this 
Commission will be a light. It certainly has very, very 
professional staff who, when we produce, as we did recently, 
our report on human rights, it is heavily footnoted, heavily 
documented, and the Chinese know that we're speaking truth to 
power as a Commission.
    So, I would just, before going to my good friend and 
colleague, just ask, has the Human Rights Council and the other 
important human rights apparatuses of the United Nations, the 
High Commissioner for Human Rights, raised the issue of Chen 
Guangcheng by name? Has Bankai Moon raised it to the Chinese 
officials?
    Ms. Hom. Representative Smith, maybe the adjective we 
should be using is not overt, but what we should really be 
focusing on is whether the action is principled, unequivocal, 
without sending mixed messages, and not behind closed doors. I 
think we can quibble on ``overt,'' but I think the real problem 
is that it's not unequivocal, transparent, and principled.
    I think one problem with mixed messaging can be seen when 
Secretary Clinton first went to China. The Chinese were 
listening quite closely to the messages delivered and the 
official media Chinese headlines declared ``U.S. Says Human 
Rights Not on Table.'' I don't think the United States has 
fully recovered from that initial message.
    I wanted to say something about a practical suggestion for 
a legislative initiative that might be explored. Last year, the 
Chinese Communist authorities issued a directive regarding the 
disclosure of all assets domestically or abroad of Party 
officials and their families. The problem is, that the assets 
of most of the high Party officials, and the over 70 million 
Party members, are often ill-gotten gains that are invested in 
property, business, et cetera abroad. In fact, some Chinese 
studies indicate that the United States is one of the top 
destinations. So this corruption and outflow of money is an 
interesting problem--one that the Communist Party sees as a 
problem, too. Wouldn't this be an interesting example for 
cross-border enforcement?
    Mr. Cohen. On your point, Mr. Chairman, about the Human 
Rights Council of the United Nations, as distinguished from the 
Working Group on Arbitrary Detention, the former is, of course, 
a highly political institution in which many of the 
participants have their own very serious human rights problems 
and there's a kind of alliance of the anti-democratic 
governments that makes it hard for us to take as effective 
action as we should.
    I am glad that you emphasize the fact that our highest 
officials haven't, on a continuous basis, done all that they 
can on human rights. I think that's true. I'm also glad that 
Sharon Hom pointed out the continuing necessity for U.S. 
Government action. In my own remarks, I was trying merely to 
point out that we shouldn't exaggerate the impact that we've 
had when we've made overt government interventions.
    I think to be really effective such protests have to be 
accompanied not only by UN organization activities, but also a 
lot of these more unofficial NGO and spontaneous popular 
petitions and educational efforts, plus committee hearings like 
this. I think it's got to be an overall package. I think then 
the Chinese Government will be more likely to show a favorable 
response.
    I don't think--and you've said the same thing, I believe--
that we have to be so worried about the fact that the Chinese 
are bankrolling our economy and now negotiating with Europe to 
participate to a greater extent in Europe's economy. They're 
doing it for self-interest. If there's a market collapse in 
Europe, if there's a collapse in the United States, China's 
huge export markets on which its leaders are so dependent for 
their own political survival will also disappear. So this is 
self-interest.
    Of course, it's harder to influence China's leaders than in 
the past, not only because of the country's WTO entry. There is 
greater confidence in China now. Occasionally one thinks 
there's a certain arrogance that we normally associate with 
some of the western powers, including ourselves. There's a 
rising nationalism in China, a greater confidence among the 
young people. People of 25 often have a different attitude from 
people who are 45. We have to take account of that also.
    But I think we obviously have to continue to use all the 
pressures we can. Yet, as I said in my opening statement, the 
real key is in China, and the newest development and the one 
that is up for grabs, the outcome of which is unclear, is, how 
effective will be the government's efforts to control blogging, 
social media, and the Internet?
    Some people are very confident China will never, despite 
all its dictatorial efforts, succeed in controlling them. Other 
people feel, by and large, the government is going to be able 
to keep up with the challenges. It's an open question, but what 
we see now is the possibility for the first time of people 
expressing themselves much more freely than they have since 
1979 when there was a brief period of several months before 
Deng Xiaoping made his trip to the United States when people 
were quite free in Beijing, at least.
    I was living there then and it was almost frighteningly 
free from November 1978 to February 1979. But once Deng came 
back from the United States and once China went to war with 
Vietnam, and he wanted to moderate the enthusiasm of the 
Chinese people for things American, we have seen all this 
repression recur. I think we now are entering a new period, and 
my hope is that the Internet and the social media will make 
possible very positive, but peaceful, developments.
    Ms. Hom. Can I add a quick comment? On the weibos, the 
microblogs, that's absolutely right and it's an ongoing battle. 
But you're talking about bloggers, some with followers of 1 
million, 5 million, 10 million followers. So if they, as in the 
case of Chen Guangcheng's supporters, upload a weibo post, and 
it gets re-tweeted, that means even if it's taken down, which 
they often are, by the time it's taken down, 15 minutes, 20 
minutes later, 20 million people might have already read it. 
This is why I think it's not only impossible to shut it down, 
even if it is shut down, the information has already been 
disseminated.
    But I did not address, Mr. Chairman, your question about 
the Human Rights Council. In their urgent appeals and what they 
call Letters of Allegation, each of the special rapporteurs 
that I mentioned in my written statement did specifically 
inquire about Chen Guangcheng's situation. The Working Group on 
Arbitrary Detention's decision on Chen Guangcheng should be 
required reading because of its extensive and detailed record 
on his case.
    However, when these human rights mechanisms report to the 
Human Rights Council, there is, of course, debate. The not-so-
rights-respecting countries will protest, but the fact remains 
that the final reports are part of the public records of the 
Human Rights Council. One example of how China tries to censor 
what is in a final human rights report: After China's review 
before one of the UN treaty bodies, the Committee Against 
Torture [CAT] in 2008, the CAT issued its final report. China 
filed one of the first formal protests and demanded certain 
language to be taken out of the experts' report. The language 
they wanted deleted as inappropriate in a UN report was what it 
referred to as the ``so-called 1989 Democracy Movement,'' and 
the term ``crackdown.'' But the CAT Committee did not remove 
the ``offending'' language.
    So in the international arena, these independent experts 
need to hold the line, and for them to be supported, but it 
also requires them to speak up. The United States, even as an 
observer state at the Human Rights Council, did not even sign 
up during the universal periodic review of China. The U.S. 
absence and silence was clearly noted.
    Ms. Chai. Yes. Chairman Smith, I just want to echo what you 
stated earlier, that the U.S. presidential level has lacked a 
strong, consistent human rights policy toward China. I would 
absolutely agree with your statement. I even want to take it 
further. This is not just an issue of the current Obama 
Administration. It involves the same kind of policy as 
demonstrated by the Clinton Administration and, together with 
even the Bush Administration. George W.'s Administration was 
much more courageous toward China's faith-based movement, but 
on human rights there wasn't really an improvement. So this is 
a consistent 22-year U.S.-China policy.
    As I was finishing my memoir, ``A Heart for Freedom,'' I 
went back and tried to understand this relationship. On the 
night of the June 4 massacre in 1989, I was one of the key 
student leaders. We were the last 5,000 students. We were told 
a rumor, saying that if we stayed until 6 a.m. in the morning 
the United States may intervene to stop China's brutality once 
and for all and China can be set free, so we waited and risked 
our lives and eventually the students were given a chance to 
leave and the majority voted to leave.
    So I had to escape for 10 months and finally came to 
America. I came to find Ambassador Levy, who was U.S. 
Ambassador at that time in Beijing during the massacre, and I 
wanted to know from him directly, did the United States have 
any plan to intervene or do anything to stop what the Chinese 
leaders were doing through the massacre? He immediately said 
that rumor was an absolute lie, not at all. Then there was a 
time I met him around 1994, 1995. I went on and said, ``Why? '' 
It was a private meeting. He just said, ``It's far away and 
because they don't care.'' I was heartbroken.
    I believe that one sentence summarized the entire U.S.-
China policy in the past 22 years, and that's exactly why Deng 
Xiaoping believed he could use a massacre against his own 
people and scare the public away, because when I had researched 
why he used this massacre to kill his own people, how dare he, 
why did he have such courage to do that, he said ``We, China, 
is a big fat piece of meat. The United States, the Western 
countries, they're going to scream and kick for a few years and 
then they are going to come back because they each want a piece 
of us. Just wait, let it get its household in order. We can 
wait them out.'' And he was right. For the longest time I was 
devastated when I learned this reality.
    That was a reality, I believe--you know, Sharon, you 
correctly described, and so did Professor Cohen--that after so 
many U.S. NGOs, human rights organizations, UN organizations, 
advocated for various dissidents and in persecution situations, 
most of them do not end up in freedom or release. China can 
continue to do whatever they want to do and it's simply 
because, unfortunately, the U.S. Wall Street is selling souls 
to China.
    The dictatorship wants to maintain the current trade, the 
current profitability. I have so many friends who do business 
in China. They do not approve of or support what we are doing 
because they do not want to rob the chance to make more money. 
Then you see the American poor people, the middle class, who 
are losing our jobs to China.
    What should the United States have done? It should have 
done what President Reagan did in 1988 with South Korea. 
Ambassador Levy's memoir, when I read it, was really moving. He 
wrote, in 1988 when he was ambassador in South Korea, South 
Korea was having the same kind of situation with dissidents 
demonstrating, protesting toward freedom.
    The leaders at that time of South Korea were at a 
crossroads. They could go crack down on the movement or they 
could go ahead and let them be set free. Ambassador Levy was 
able to obtain a letter from President Reagan and he went in 
courageously and warned the leader of South Korea that if they 
were to take brutal actions, there would be severe 
consequences.
    As a result of that, South Korea was let free and they have 
freedom today. I believe, if the United States, in 1989, had 
taken a very different approach, if President Reagan had been 
in office, we would see a different China and we would have a 
different U.S.-China relationship.
    We cannot rewrite history today, but we can determine how 
we will act differently tomorrow and we can take different 
action today. That is why I'm here. I think starting from Chen 
Guangcheng's case, it is important for us to take a different 
stand.
    Mr. Cohen. I wonder whether I could say a few words just to 
broaden the discussion about what strategies might work and 
what might not work for the next couple of years.
    First of all, I think it is important to understand there 
is a quiet struggle under way in Beijing now about how to 
revise the criminal procedure laws in ways that will either 
enhance protection of the rights of suspects and defendants or 
expand the powers of the police and other law enforcement 
agencies.
    Of course, the upper hand is in the hands of the police 
because it's the Chinese Communist Party Political-Legal 
Commission that controls all legal institutions, starting with 
the legislature and including the courts, the police, the 
prosecutors, the justice bureaus, the legal profession, et 
cetera.
    Now, that commission, until the autumn of 2012, is headed 
by Zhou Yongkang, who used to be the Minister of Public 
Security. He's been promoted in recent years to the Standing 
Committee of the Politburo, and he's the head of the Political-
Legal Commission. He's pursued a tough line. I don't think we 
can expect that the people who are fighting for greater civil 
liberties, greater protections against the kind of suffering 
that Chen Guangcheng and many others have endured, are likely 
to come out of this law reform with very significant progress, 
but it's going to be a mixed kind of bag. But then China gets a 
new leadership a year from now and the question is, will there 
be any new leaders more likely to be sympathetic to a genuine 
rule of law in China?
    In 1956, no one anticipated what Khruschev did in 
introducing de-Stalinization. He had been a running dog of 
Stalin and people didn't expect that he would make public the 
abuses of Stalin, the humiliations that even he and others 
suffered. In 1990, although Gorbachev had gone to law school, 
nobody realized that, when he became top dog in the Communist 
Party of the Soviet Union, he would try to engineer the reforms 
he did. So, we have to be alert to the possibility of change at 
the top, because China is changing.
    The key is the middle class that has been mentioned. The 
other day, in discussing a potential bursting of the real 
estate bubble in China, a very good reporter in the Financial 
Times, Jamil Anderlini , pointed out that a bursting of the 
real estate bubble would deprive the Party of its strongest 
support, the strongest support being the middle class that has 
benefited from the Party's policies. Thus there is a real 
question in terms of which way the middle class will go.
    There have also been signs that the middle class is getting 
a little restive with the Party policy on which they have 
depended and which they have supported. Traditionally, in 
Western Europe and in the United States, we associate the 
rising middle class with greater demands for human rights.
    In China, it hasn't gone that way. Many of us hoped, 25 
years ago, 30 years ago, it would go that way. We see until now 
the middle class is the best supporter of the Communist Party 
and they have been taken into the Party, and the business elite 
have been taken in. But it may be, especially if there's an 
adverse economic turndown in China, that the middle class will 
become increasingly demanding for the kinds of improvements in 
the rule of law that we support.
    Representative Walz. Well, thank you all for your 
incredibly insightful and passionate depiction of what's 
happening and helping us try and understand what's going on. I 
couldn't agree more. The Chairman and I were just discussing, I 
had written on my sheet here at the top, 1994 MFN, and some of 
the changes I think many of us--my time in China was cut being 
there in 1989, 1990, and 1991.
    I am very interested, coming to this Commission, too, I 
think the Chairman mentioned something. I certainly associate 
myself with his remarks on this. But the importance of this 
Commission. I gravitated to this Commission. I think first and 
foremost, too, is I have a profound respect for the Chinese 
people and culture and want to see--I think all of us do--if 
there is an ability as us as people, and I think this House 
especially, a representative of the people, get this right.
    I think, Mr. Cohen, you hit on something. I think it does 
trouble a lot of Americans, this idea of lecturing other 
countries on human rights when we certainly have our past 
transgressions that are pretty apparent. But I think the 
difference is, if there's transgressions, I think the spirit of 
the American people to get this right on human rights is still 
very strong and I think no matter what's happened in the past 
to move forward to get there, and I do think it's important to 
have that, to reach that critical mass of where people care--
and it gets frustrating at a time of economic turmoil. People 
turn inwards more. People worry about it.
    The number-one call to my office is, let's just cut foreign 
aid and we could balance the budget. It's as simple as that. 
But there's a deeper belief there, worrying about our own. I 
think human rights has that ability to show, and I think the 
quote, Chai Ling, that you mentioned, is we're all in this 
together, especially on human rights.
    So the question I'm going to ask--well, I guess I'm trying 
to have you help me understand this. You're getting at it. I'm 
trying to understand where the Chinese people are in this. I 
say that because I watched a very strange phenomenon after 
Tiananmen Square of this. I know it's a part of--and don't get 
me wrong. Having lived in China, and I said I traveled there 
maybe several dozen times, but every time I go I know less. I'm 
one trip away from knowing nothing about China, so I don't want 
to go back. But I watched it afterwards and this quest for 
stability, preservation, or maintenance is so strong. I watched 
good people justify that you and your friends went too far, the 
cultural revolution was still a fresh, open wound, and that.
    So my question I guess I'm trying to get to is, is watching 
the Chinese Government, this latest central committee plenum, 
focusing heavily on cultural reform, this--and I'm a cultural 
geographer. Watching them try and change this, Mr. Cohen, you 
were hitting on this, the middle class and where they feel on 
this. These are the same people that, in 1990, were seeing 
positive changes that were saying, the students asked for too 
much, too fast. We don't think what happened to them was right, 
but they were upsetting the stability.
    Is that the way these folks like Chen are viewed still by 
the bulk of the Chinese people? Is that at the core of this, 
why there isn't a larger momentum? I'm just trying to get at 
this to see where the change is effected from.
    Mr. Cohen. Well, you have put your finger on the difference 
between our situation and the way we handle human rights 
transgressions and the situation in China. The big difference 
is a free media. When a New York policeman beats somebody up 
arbitrarily, that appears in the paper the next day and it 
starts a political-legal process that often leads to change, 
even though sometimes it takes a long time. In China, it's the 
non-transparency that really inhibits that happening. To the 
extent things become transparent, the Chinese do have to take 
certain measures.
    Now, your question here is very hard for us to answer 
because of the controls on knowing, what do the Chinese people 
think? We're not the beneficiaries of all kinds of polls that 
take the pulse of the Chinese people. There is some social 
science work being done, a little bit in cooperation with 
foreign social scientists. But we don't have the access to much 
data.
    Nevertheless, in impressionistic fashion, we get a lot of 
insight. I think Chinese society is changing fast, and we don't 
know the direction the dominant groups will take. I think it's 
up for grabs and I don't think one can assume China, in the 
next decade, is going to continue this meteoric economic 
development because I think they're becoming victims of their 
own success. The fact that there is so much socio-economic 
change is creating more and more tension, more and more 
unresolved problems. People definitely long for the stability 
and harmony that is associated with Confucius, rightly or 
wrongly, but that doesn't mean they will get it.
    Representative Walz. Right.
    Mr. Cohen. But the fact is, although they remember the 
``Cultural Revolution'' and even the ``Great Leap Forward'' and 
all the enormous starvation of the late 1950s and early 1960s, 
new generations take that less seriously but they take more 
seriously their immediate frustrations and difficulties. So a 
lot depends on where the economy goes, to what extent China's 
leaders pursue the right economic course, to what extent 
they're hurt by what is taking place abroad in terms of 
economic and other changes.
    There is a lot more openness today than there was, but 
repression remains heavy. I can understand why the leaders just 
want to finish their term in a quiet way. The quickest way to 
assure that is to hit people over the head and keep things 
quiet, but it accumulates the frustrations. And we have seen in 
other countries that too-rapid modernization produces change 
that gets out of control.
    Iran could be cited as an example of that in the 1970s, 
leading to what happened in 1979. The leaders of China are very 
sophisticated people. They've had people at their central party 
school and elsewhere studying the transformation of one-party 
states, what the options are, what's happened in South Korea 
and Taiwan compared to what's happened in Indonesia, Mexico, 
and Malaysia and other places. There is ferment in China, a lot 
more potential possibility for change, but that change could be 
good and the change could be bad.
    Representative Walz. Just one second, Professor. I'm 
struggling with this too because I think we're trying to 
understand that. I guess my concern is, and it's why I'm very 
appreciative of this Commission, is where else is that 
happening in our government, are we thinking ahead, are we 
planning for that, trying to see what that transformation will 
look like. I am concerned on two levels here.
    I'm concerned on the individual level for that child in Mr. 
Chen's household, making sure that we're doing right and that 
we're standing up and saying that we will do what's necessary, 
even if it's economically not beneficial to us to do the right 
thing. But I'm also seeing what you're getting at: where can we 
be most effective? Having a Congressman from Minnesota and New 
Jersey lecturing, if that's the way it's viewed, as being 
detrimental, I certainly don't want to do that.
    But I want to make it very clear that my constituents in 
Southern Minnesota care about that child because her father 
spoke out for things that are universally accepted as basic 
human rights. So that's where we're struggling in the advice 
you're giving us. I think those are all incredibly important 
concepts. I'm just not convinced--maybe you can help me with 
this--that we're thinking the same way, of what this outcome--
what's the end game in this, and what can we do to foster that 
end game to be positive? So, Professor Hom?
    Ms. Hom. Thank you. I totally associate with Professor 
Cohen's comments that China is really fast changing, and in 
part not only that it is the victim of its own success; it is 
that those real victims who paid and are paying the cost of 
China's economic success are not willing to keep paying those 
costs, because that economic success miracle was built on the 
backs of workers and low wages and human rights violations, and 
that is just all exploding because it is not sustainable.
    On the bigger question about, where is this very complex, 
dynamic picture of the Chinese people heading, I want to say 
three things as observations as well as suggestions for 
strategic direction. First, the middle class. What we're 
actually seeing is that the middle class may be realizing that 
things are not so good, especially as it is impacted by 
corruption or too fast and unsustainable growth.
    For example, the Shanghai high-speed train crash is very 
illustrative. Why? Who can afford to take the expensive, high-
speed rails? It's the middle class. It's not migrant workers on 
those expensive high-speed trains. Within seconds and minutes 
after the crash, photos of people seriously injured were 
already circulating on the Internet.
    But hours later, the official media was still not reporting 
the seriousness of the crash or the injuries. They weren't 
reporting the truth. When the middle class, comfortable, 
thinking they were safe, find themselves hurt, followed by 
official coverups and lies, directly related to corruption, you 
can see the growing anger. Similarly, the tragic incident of 
the two-year-old that Chai Ling raised, generated a diverse 
weibo discussion also reflected debates on fundamental 
questions asking: Who are we? What kind of people are we? And 
not only saying that we can be better than this, some posts 
actually saying don't blame the Communist Party, don't blame 
the Cultural Revolution for producing us like this. They said 
we have to step up, take responsibility, and be the kind of 
people we should be. I was so encouraged by these fundamental 
questions that go to the nature of what China's society and 
people will be, and these questions are being asked by the 
Chinese people.
    Finally, there is an as yet not fully understood role for 
Hong Kong. As a Hong Kong Chinese, I think Hong Kong has not 
really been sufficiently strategized. Hong Kong now has over 10 
million mainland people going in and out every year. Some of 
the prominent bloggers, newspaper editors, writers, poets, and 
activists, mainlanders, are now based in Hong Kong. Why? 
Because it offers more freedom to operate and the proximity of 
home in the mainland.
    I was back in Hong Kong in June and September. In June, 
sitting in Victoria Park with over 130,000 people including 
mainland visitors listening to Ding Ziling, the spokesperson 
for the Tiananmen Mothers, delivering her audio message, saying 
what could not be said in Beijing, suggests the power and 
potential of Hong Kong as a space for mainland students, 
business people, tourists, visiting scholars, journalists. If 
you visit Human Rights in China's You Tube channel at 
www.youtube.com/hrichina, you can view our newly launched 
series--``Word on the Street,'' including the first video--``Is 
Hong Kong the tail that wags the dog? '' We got some really 
interesting answers.
    On the question of stability versus human rights, I myself 
have been challenged by former Chinese colleagues and students 
who say in a public setting, perhaps because they have to, 
demanding that I answer if you have to choose stability or 
human rights, what would you choose? I say it's not a choice 
because there's no stability without human rights, just like 
there's no real effective counterterrorism measures if human 
rights are violated. But this message now is actually being 
grasped by ordinary Chinese people.
    They're seeing that the Chinese national policy of weiran, 
this control policy, is not producing stability. Invoking 
stability is actually an excuse for not dealing with the 
fundamental causes of social unrest--corruption, lack of access 
to housing, jobs and healthcare, and a safe non-toxic 
environment. Invoking stability to the hundreds of millions who 
are suffering from these problems, is just not as persuasive as 
it was 30 years ago and I think that is encouraging.
    Representative Walz. That's good.
    Mr. Cohen. I just wanted to say, that's a wonderful 
statement Sharon has made. I would only emphasize the profound 
unhappiness of many, many people in China about corruption, 
corruption of high officials, of low officials whom they come 
in daily contact with. I think the most profound feeling that 
we share with the Chinese is the desire for equal treatment. We 
can understand that, equal justice under law. There is a 
profound sense in China that there is not equal justice.
    Representative Walz. Well, I think both of you, those are 
very profound statements. Chai Ling, I will come to you in just 
a second on this. I think that is transformative, I think in 
the long run, of seeing China, of where it will be into the 
future instead of in this town again, as a lot of false 
choices. Sharon, as you said, it's either/or, and we know 
that's not the case. It's either Dragonslayer, or Panda Hugger, 
whatever it will be. The reality is dealing with it as this 
relationship becomes more sophisticated over time and becomes 
more intertwined for us to get it right.
    I find it kind of interesting. As a member of Congress, I 
don't think we can take ourselves too seriously, our influence; 
every time they do a public approval poll or something it lets 
us know. But I found it very interesting, after I was appointed 
to this committee, most of my contacts with friends in China 
stopped. Do you find that surprising? These were good, long-
term, decades-long friendships. I certainly don't pursue it 
because I don't want to put anybody in a bad position, but I 
find that interesting. It also reinforces my belief maybe we're 
doing something here. So I don't know what you think, how that 
would--a coincidence. Could be they just don't like me, I 
suppose.
    Mr. Cohen. I think the work of this Commission is 
indispensable. I think the reports that you do, the hearings 
that you hold, we can't find anywhere else in the U.S. 
Government or in State governments. The other commission that 
was created by Congress, of course, deals with other major 
problems including political and military as well as economic 
security. Its work, although crucial, does not promote the 
understanding of China in terms of society, human rights, et 
cetera, to the same extent as your commission makes possible. 
So, although you're not a substitute for the ability to deny 
China access to our market that the Congress used to have, 
you're doing very important, fundamental work.
    Representative Walz. Chai Ling, if you'd like to follow up. 
I'm sorry. It's not often we have three wonderful panelists 
here. I want to bounce as many things off you as I can.
    Ms. Chai. Oh, totally. I have really been enjoying 
Professor Cohen and Sharon's wonderful insight and report. I am 
excited when I hear that you were in China from 1988 to 1989 or 
1990. I'd love to know what you were doing. But anyway----
    Representative Walz. I would add on that, I was also from 
Foshan, so the video that made its way around hit me very 
deeply because I have a lot of friends. I know that's not the 
people who live there. Good, good people.
    Ms. Chai. Yes.
    Representative Walz. Sorry to interrupt you.
    Ms. Chai. Oh, no. This is great. So I know people who were 
in China in those years that share a very strong bond. I also 
understand the emotion you experience when you go back to see 
the Chinese friends you built at that time. It was a systematic 
and methodical denial of who they were, what actually happened 
at Tiananmen, the nature, the spirit of Tiananmen, and that's 
what happened to me. It was the most lonely and painful 
experience to see my dear friends' and comrades' betrayal, 
selling out for business and going back to China to do business 
and all that, alongside an open attack in the media or through 
all kinds of situations to defame the spirit of Tiananmen.
    That's why it took me 22 years to finish my memoir, because 
I did not understand why, why this was happening, why all these 
things I experienced so intimately and so powerfully, so real, 
so true, and that genuine love, support, and courage all 
started being denied. Later on when I finally came to Jesus, I 
understood, even Peter denied Jesus three times. It makes 
sense. Good people can do the wrong things at the wrong time. 
Someday they will be restored to be a hero again. I want to 
share with you the framework I learned when I went back to do 
the research, how to understand China in a better way, and then 
I want to go back to say, so in the case what would be better--
U.S.-China relationship would help facilitate a free and fair 
China sooner.
    In 1989, the death of Hu Yaobong led to the student 
movement. Hu Yaobong was the one who was famous for advocating 
for three reforms. At that time as a young student, I did not 
understand what he was talking about. He advocated for 
economic, political, and spiritual reform. So now, looking 
back, we can see that Xiaoxi Yong, the premier who eventually 
was sentenced to house imprisonment for his disagreement with 
Deng Xiaping's massacre decision, he advocated for two reforms, 
that is, political and economic. Am I okay? Just a few more 
minutes? Thank you.
    But Deng Xiaoping only wanted one reform, and that is 
economic reform. That is what China has today. We can see, even 
though every day we hear a lot of insight and we know the 
generous statistics that tell us the picture of what this 
economic reform had led to, especially the massive amount of 
corruption, supposedly a small amount of people around a number 
of 5,000 Chinese families control 70 percent of China's wealth 
and its political power and military power. The middle class 
divides up this other 27 percent.
    A third of the Chinese population, 465 million people, live 
under $2 a day. Those extremely poor people are forgotten in 
the shadow of China's power and wealth, and that's what's 
happening to China today. That is the singular economic reform 
that led to a nation in this kind of situation.
    The political reform is equivalent to none. There is no 
freedom in the media, there is no rule of law. When I finished 
at Princeton, when I finished from Harvard Business School, I 
thought, wow, we really need to push for political reform. Once 
we have that, China will be free. For the longest time I lived 
with this constant frustration, and now I see we need more than 
that to really free this nation, and that is the true and 
fundamental spiritual reform. I do not know if Hu Jaobong knew 
what he was talking about, but that is what China is in search 
of and hungry for today. But China is achieving spiritual 
reform, as over 10 percent of China's population are coming to 
Jesus. That's really a powerful revolution.
    In my last page of my book, when I pray and say, ``God, 
where were you on the night of June 4, where were you,'' I 
write about how He gave me the answer. He was right there with 
the students and He's there, right there today with the Chinese 
people. That is a powerful movement.
    Dr. Tim Keller, who leads amazing American churches in the 
United States visited Beijing. The table was surrounded by 
people and they said he asked, ``What happened to the Tiananmen 
generation? '' The feedback was, a third of those people went 
to become believers and serve the country, a third went to 
business for stability and other things, and a third are still 
confused, trying to figure it out. So that may in a way 
summarize what is happening to China.
    So under today's Chinese society, because of the lack of 
rule of law, lack of a free media, lack of fundamental 
spiritual reform and transformation and this massive wealth gap 
between the rich and poor, and China has also in addition 
suffering the largest crime against humanity, the largest human 
rights abuses that are taking place every day under the One-
Child Policy. Every day, over 35,000 forced and coerced 
abortions are taking place. That is, every hour there is a 
Tiananmen massacre, and it's ongoing. It's not stopping until 
we do something to stop it. Five hundred women commit suicide 
every single day.
    For every six girls that are scheduled to be born, the 
sixth girl will never make it. Every sixth boy will grow up and 
have no wife to marry. Today, China has 37 million single men 
and they have become a major driver for sex trafficking and 
domestic civil unrest, and potentially for global war. Those 
are the base that fuel this nationalism. So that leads me to 
why we, the United States, need to care. Not only do we need to 
care, we need to take immediate, urgent, decisive and 
persistent action because if we do not, China's today and 
China's past will become our future. We are already losing our 
liberty piece by piece. We are already hearing in the media and 
politics, everybody is talking about China as powerful, China 
controlling our debt.
    I guess I want to echo Chairman Smith's words. If we make a 
quota saying China no longer can sell or buy U.S. Treasury 
bills, let's see who really has the true power. If we put a 
tariff on China exports to the United States, let's see what's 
going to happen. If we really take a firm stand, like President 
Reagan did, on democracy, on freedom, to help in China, I 
believe America would become a much stronger America and China 
will become a better China as a result of our actions.
    I do want to conclude my statement by reminding us of the 
Frenchman, de Tocqueville, after he studied America in 1831. He 
left this amazing warning to America, that America is great 
because America is good. If America ever ceases to be good, 
America will cease to be great. We are at this very critical 
juncture now that America will potentially be--and it's already 
being talked about that America is--in decline. Are we ever 
going to reverse that trend to see us to be great? I urge you 
to take action. I also encourage you that someday those people 
who are denied Tiananmen will come back.
    Representative Walz. Thank you all very much.
    Mr. Chairman, thank you again.
    Chairman Smith. Well, thank you very much.
    I'd like to now yield to Abigail Story, who is Senior 
Research Associate and Manager of Special Projects for our 
Commission for any questions you might have.
    Ms. Story. Thank you, Mr. Chairman, and thank you, Mr. 
Walz, for your interest in Chen Guangcheng's case specifically, 
and for your interest in the development of human rights and 
the rule of law in China.
    My question is actually for any of you who choose to take 
it. I'd like to go back to Chen Guangcheng's case specifically 
and what's happening to his family--not just to Chen 
Guangcheng, but also to his wife, Yuan Weijing, and their six-
year-old daughter, not to mention their young son who is not 
able to live with them and is living with his grandparents.
    Some people may call this an extreme case similar to that 
of Gao Zhisheng, the lawyer who has been disappeared since 
April 2010. Some may call these extreme, but I have to wonder 
what the other rights defense lawyers in China are thinking 
when they see these cases all across social media, as we've 
been talking about these online campaigns, they're seeing 
what's happening not just to Chen, but also to his family. You 
have to wonder if they're thinking, ``What if I take a stand, 
what will happen to my family? ''
    My question is, what does this mean for the development of 
the rule of law in China if China's lawyers are not able to 
practice freely without fear of the impact on their lives and 
the lives of their family members?
    Mr. Cohen. It's an excellent question and it reminds me 
that I haven't stressed today one of the more unfortunate 
aspects that the Chen case demonstrates, which is collective 
punishment. The rights lawyers, the criminal defense lawyers, 
and the public interest lawyers are not only themselves 
suffering and intimidated, but also their families are 
suffering and often threatened.
    One of the reasons for the silence in the months after 
their release from illegal captivity this year of many of my 
friends in the human rights area has been veiled and not-so-
veiled threats against their spouses and their children, and 
this is against the background of past discrimination against 
family members that gives credibility to those threats.
    I mentioned in my report--I didn't because of time in my 
introduction--the case, for example, of Shanghai's former 
lawyer Zheng Enchong. This man had no idea of becoming a human 
rights lawyer. He was just asked by people in Shanghai to give 
them legal help in trying to overturn the illegal conspiracy 
between government officials and real estate developers that 
had led to the forced removal from their homes and destruction 
of their houses of a lot of people.
    But because he undertook that, Mr. Zheng immediately got 
into a series of difficulties, including three years in prison. 
He came out in 2006 and he has been really confined to his 
apartment since then. There's no legal basis for this 
oppression. Also, his daughter was told, ``You've got no 
future. You can't go to the university you wanted to go to in 
Shanghai, you might as well leave,'' and she left. She's been 
in New York ever since. She didn't know English. She was not 
one of these people who intended to study abroad. She is 
struggling to survive financially. Now she can't even have 
contact with her parents indirectly. For a while she was able 
to have indirect contact with the family. So this is another 
example of collective punishment.
    We are celebrating this year the 100th anniversary of the 
overthrow of the Manchu [Qing] Dynasty, the end of the 
millennial Imperial era. The question is, in the last 100 
years, what has been accomplished in the quest for justice in 
China? Well, one of the immediate consequences of the end of 
the empire was the abolition of collective punishment. No 
longer would somebody convicted of a political crime see his 
children and his parents and his other family members suffer 
and even be exterminated with him. That was considered 
inconsistent with the demands of the civilized world that China 
wanted to enter.
    But what we're seeing today is a resurrection in practice, 
not in law, of collective punishment. That is a sad thing and 
we have to understand that, if you want to intimidate someone, 
usually the best way is not to threaten that person, but his 
loved ones.
    Chairman Smith. Thank you very much, Abigail.
    Anything else you would like to add before we conclude the 
hearing? Ms. Hom?
    Ms. Hom. I think that the strategic questions are the kinds 
of discussions that need to continue. The CECC has done 
excellent work on reporting and monitoring the rule of law and 
human rights situation in China, including the preparation of 
the annual reports. I have been at a number of CEEC hearings, 
and where I think we need to focus is on talking about strategy 
in a more nuanced, sophisticated way and not as simple choices, 
and recognize that there are multiple levels of actions. But 
one thing I think everyone can do in this room, and Professor 
Cohen and I will start, is that everyone should go to the 
virtual campaign Web site for ``Dark Glasses Portrait,'' put on 
dark sunglasses, take a photo, and post it----
    Chairman Smith. Absolutely.
    Ms. Hom [continuing].--And join the more than 242 people 
who have already done so. Professor Cohen?
    Mr. Cohen. It's even good for our eyes.
    Ms. Hom. I think that we can each make small gestures and 
we also need to continue to develop together more 
sophisticated, long-term strategies. Everyone who has 
sunglasses should put them on now.
    Mr. Cohen. I want to say, Mr. Chairman, we're very grateful 
for this extended opportunity. We know how valuable time is in 
the Congress, and we thank you for your organization and 
intelligent chairing of this session and good questions, and 
also the able help of the staff. It is all in a good cause. I 
hope you can convince many of your colleagues to expand their 
interest in China and the vigor with which they support human 
rights.
    Chairman Smith. Thank you, Professor.
    Ms. Chai. Yes, Chairman Smith. I just want to thank you 
again for your consistent fight to improve China's human 
rights, including ending the one-child policy. I do see that 
the day for China to be free is near, and so therefore we 
should continue to preserve with hope and confidence. I do have 
two strategic suggestions in addition to this very symbolic, 
important gesture.
    One, is tomorrow there will be a hearing on H.R. 2121, 
China's Democracy Promotion Act. Once that bill is passed--
again Chairman Smith has drafted that bill--that would bar all 
Chinese leaders at all levels who are persecuting its own 
people on human rights violations, from religious freedom, to 
One-Child Policy, to taking away property, and all that. So I 
think that is a very important step. A similar bill worked in 
Burma very effectively, and in many other countries. I believe 
this is a very important milestone bill that needs a full court 
press to move forward to make that happen.
    The second one, I do want to echo. Sharon, you suggested a 
lot of corrupt Chinese officials own assets that are somehow 
stored in America. Professor Cohen, the law profession has a 
lot of lawyers in this country. A suggestion has been made that 
the victims of Chinese human rights abuses can take action 
through a legal statute in this country to go after those 
officials and even potentially seize their properties in this 
country. I encourage--I'm not in the legal profession myself, 
but I encourage other expertise on that front to take action as 
well. I believe if we all take action in this way, in addition 
to the social media, we'll see a change. Thank you very much 
again.
    Chairman Smith. Thank you so much.
    I'll just conclude by--I will actually be sitting on this 
side of the dais tomorrow. I'll be joining Chai Ling before the 
Judiciary Committee as a witness on behalf of H.R. 2121, a bill 
that I've introduced. And for the record, it was patterned 
after the Belarus Democracy Act, which I authored in 2004, to 
hold Lukashenko's barbaric regime in Belarus to account using 
every tool we could possibly think of, including denying visas 
to those people who are complicit in human rights abuse.
    The idea behind this bill, for those who are part of the 
forced abortion policy, the torture regime, and all of the 
crushing of political parties, as well as those who seek a 
labor party, obviously the apparatus in China has crushed 
independent trade unions comprehensively. Those who are part of 
that human rights abuse crime or crimes, the President would be 
empowered, through the Secretary of State, to deny a visa to 
that individual and lists would be promulgated that would 
contain the names of people who have been part of those crimes. 
Being on that list means you don't come to the United States of 
America. Of course there would be a waiver if it was in the 
national interest or for the purposes of promoting human 
rights, but we would hope that waiver would be used sparingly.
    Very importantly, Lamar Smith, chairman of the full 
Judiciary Committee, is one of our very distinguished co-
sponsors. It's a bipartisan bill. Our hope is, like with the 
Belarus Democracy Act but on a much grander scale--this is 
China--the legislation will move, will be enacted, and will be 
used in a very calibrated and focused and targeted way to hold 
to account those who commit these heinous crimes. So thank you, 
Chai Ling, for bringing that up. Again, thank you to our very 
distinguished witnesses for your extraordinary work.
    The hearing is adjourned.
    [Whereupon, at 4:47 p.m. the hearing was adjourned.]
                            A P P E N D I X

=======================================================================


                          Prepared Statements

                              ----------                              


</pre></body></html>
